<html>
<title> - AUTISM SPECTRUM DISORDERS: AN UPDATE OF FEDERAL GOVERNMENT INITIATIVES AND REVOLUTIONARY NEW TREATMENT OF NEURO-DEVELOPMENTAL DISEASES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
AUTISM SPECTRUM DISORDERS: AN UPDATE OF FEDERAL GOVERNMENT INITIATIVES 
    AND REVOLUTIONARY NEW TREATMENT OF NEURO-DEVELOPMENTAL DISEASES

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON HUMAN RIGHTS AND WELLNESS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 6, 2004

                               __________

                           Serial No. 108-192

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform





                 U.S. GOVERNMENT PRINTING OFFICE

95-740                  WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001





                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
           Phil Barnet, Minority Chief of Staff/Chief Counsel

               Subcommittee on Human Rights and Wellness

                     DAN BURTON, Indiana, Chairman
CHRIS CANNON, Utah                   DIANE E. WATSON, California
CHRISTOPHER SHAYS, Connecticut       BERNARD SANDERS, Vermont 
ILEANA ROS-LEHTINEN, Florida             (Independent)
                                     ELIJAH E. CUMMINGS, Maryland

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                      Mark Walker, Chief of Staff
                Mindi Walker, Professional Staff Member
                        Danielle Perraut, Clerk
                   Richard Butcher, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 6, 2004......................................     1
Statement of:
    Buttar, Rashid, DO, creator of a transdermal chelator, 
      Cornelius, NC; Paul Harch, M.D., president, International 
      Hyperbaric Medical Association; Ken Stoller, M.D., Santa 
      Fe, NM; and Julie Gordon, founder and director, MUMS--
      Mothers United for Moral Support, accompanied by Shannon 
      Kentiz of Wisconsin........................................    31
    Justesen, Troy, Acting Assistant Secretary, Office of Special 
      Education and Rehabilitative Services, Department of 
      Education..................................................     9
Letters, statements, etc., submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     4
    Buttar, Rashid, DO, creator of a transdermal chelator, 
      Cornelius, NC, prepared statement of.......................    36
    Gordon, Julie, founder and director, MUMS--Mothers United for 
      Moral Support, prepared statement of.......................    90
    Harch, Paul, M.D., president, International Hyperbaric 
      Medical Association, prepared statement of.................    62
    Justesen, Troy, Acting Assistant Secretary, Office of Special 
      Education and Rehabilitative Services, Department of 
      Education, prepared statement of...........................    12
    Ros-Lehtinen, Hon. Ileana, a Representative in Congress from 
      the State of Florida, prepared statement of................   106
    Stoller, Ken, M.D., Santa Fe, NM, prepared statement of......    73
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    21


AUTISM SPECTRUM DISORDERS: AN UPDATE OF FEDERAL GOVERNMENT INITIATIVES 
     AND REVOLUTIONARY NEW TREATMENT OF NEURODEVELOPMENTAL DISEASES

                              ----------                              


                         THURSDAY, MAY 6, 2004

                  House of Representatives,
         Subcommittee on Human Rights and Wellness,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:15 p.m., in 
room 2247, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the subcommittee) presiding.
    Present: Representatives Watson and Burton.
    Also present: Representative Weldon.
    Staff present: Mark Walker, staff director; Mindi Walker, 
Brian Fauls, and Dan Getz, professional staff members; Danielle 
Perraut, clerk; Nick Mutton, press secretary; Richard Butcher, 
minority counsel; and Jean Gosa, minority assistant clerk.
    Mr. Burton. Good afternoon. A quorum being present, the 
Subcommittee on Human Rights and Wellness will come to order.
    I ask unanimous consent that all Members' and witnesses' 
written and opening statements be included in the record. 
Without objection, so ordered.
    Congressman Watson, I understand, who is the ranking member 
of this subcommittee, will be here shortly.
    I ask unanimous consent that all articles exhibits and 
extraneous or tabular materials referred to be included in the 
record; and, without objection, so ordered.
    In the event of other Members attending today's hearing I 
ask unanimous consent that they be permitted to serve as a 
member of the subcommittee for the purpose of today's hearing. 
Without objection, so ordered.
    The subcommittee is convening today to examine the advances 
in Federal Government initiatives, as well as new treatments 
that have been shown to benefit the medical condition of 
individuals afflicted with Autism Spectrum Disorder.
    As many of us already know, the incidences of autism have 
become increasingly prevalent in modern-day society. Once 
considered a rare disease, affecting roughly 1 in 10,000 
children, autism now affects 1.5 million of our Nation's 
children; and the problem continues to escalate.
    According to a recent ``Autism Alarm'' released by the U.S. 
Department of Health and Human Services and the Centers for 
Disease Control and the American Academy of Pediatrics, 
currently, as I said, 1 out of every 6 children are diagnosed 
with a developmental disorder and/or behavioral problem. Even 
more alarming, today 1 out of every 166 children in the United 
States is being diagnosed with an Autism Spectrum Disorder.
    This is a major health care crisis that has to be addressed 
by our health agencies because it's simply not going to ``go 
away.'' It just gets worse and worse.
    As such, the U.S. Government has rightfully begun to 
acknowledge the present and future public health implications 
of this autism epidemic by establishing an Interagency Autism 
Coordinating Committee. The IACC is comprised of 
representatives from HHS, the National Institutes of Health, 
the Department of Education, as well as various non-
governmental organizations and parental support groups.
    The IACC meets on a bi-annual basis to discuss and 
coordinate the various research projects with regard to autism, 
as well as to keep an open dialog in addressing the numerous 
health care and educational needs of individuals with autism.
    To further address the concerns of the autism community, 
HHS and the Department of Education at long last sponsored the 
first-ever ``National Autism Summit'' in November 2003. Some of 
the best scientific and medical researchers, as well as autism 
activists, key Members of Congress, and a host of parental 
support groups initiated an open dialog on the status of 
research initiatives.
    This summit was essential to bridging the relationship 
between the government, non-governmental organizations and 
private citizens.
    To better explain the status of Federal Government autism 
initiatives, the subcommittee has the pleasure of hearing 
testimony today from the Honorable Troy Justesen, the Acting 
Assistant Secretary in the Office of Special Education and 
Rehabilitative Services at the U.S. Department of Education.
    During my tenure as chairman of the full Committee on 
Government Reform, and as the current Chair of this 
subcommittee, I have convened 20 hearings on the topics of 
autism, vaccine safety, and the detrimental health effects of 
mercury-containing medical products.
    We've been successful in getting mercury out of almost all 
children's vaccines except, I think--what--three. The problem 
is that, still on the shelves, are vaccines that are being 
given to children that contain mercury that are no longer being 
produced. We need to have a recall on those, but so far HHS and 
CDC has not chosen to do that. But we're working on them.
    During these investigations, numerous scientists from 
around the globe have testified before the committee and have 
presented credible peer-reviewed research studies that 
indicated a direct link between the exposure of mercury, a 
widely known neurotoxin, and the increasing instances of 
autism. Because autistic individuals typically have a high 
concentration of mercury stored in their bodies, many doctors 
are concerned with how exactly they can safely remove these 
toxins from their patients without exposing them to greater 
medical risks.
    One popular method to remove this poisonous metal, called 
chelation therapy, involves an intravenous solution that 
disperses and collects mercury, ultimately to be flushed out of 
the body. Unfortunately, because of the way in which this 
therapy is administered, it is not recommended for use with 
children, although some are doing it. Dr. Rashid Buttar has 
developed a groundbreaking transdermal chelator that has proven 
safe to use in treating pediatric patients.
    Dr. Buttar is testifying before the subcommittee today to 
speak on his personal success and application of this 
groundbreaking treatment. I'm really anxious to hear what the 
doctor has to say about that. I think it will be great if it 
works as I hear it has.
    Another cutting-edge medical development currently being 
used and tested for the use in autistic patients is Hyperbaric 
Oxygen Therapy. This treatment, which involves the delivery of 
pressurized oxygen to a patient, has been recently used to 
assist with the regeneration of neurons in brain-injured 
individuals. Dr. Paul Harch, president of the International 
Hyperbaric Medical Association, will discuss how the use of 
hyperbarics may be a viable therapy to administer to persons 
afflicted with an Autism Spectrum Disorder.
    In addition, Dr. Ken Stoller has been invited to further 
supplement the testimony of Dr. Harch and discuss additional 
uses for hyperbaric treatments for patients afflicted with 
other neurodevelopmental diseases and injuries.
    Finally, to gain the perspective of parents of brain-
injured children, Ms. Julie Gordon, founder and director of 
MUMS, Mothers United for Moral Support, will be testifying 
today in regard to how coalitions of parents have come together 
and effectively lobbied for the advancement of their children's 
health.
    As I stated before, autism is an epidemic, and I sure hope 
our health agencies are paying attention, because it really is, 
and it directly affects millions of Americans, including every 
single taxpayer in the United States and will for decades to 
come.
    I am pleased to see that our Nation's health and education 
agencies are beginning to do their part to address this 
pandemic situation. I implore them to continue their fight 
against these devastating diseases and get mercury out of all 
vaccines for children and adults. We haven't mentioned people 
who are aging, who have neurological disorders, but there is a 
growing body of evidence that the mercury has affected them as 
well.
    I'd like to thank all our witnesses for making the long 
trip to Washington for this most important hearing, and I look 
forward to hearing about the revolutionary treatments and 
current research that will hopefully 1 day completely eradicate 
these spectrum disorders.
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] 95740.001
    
    [GRAPHIC] [TIFF OMITTED] 95740.002
    
    [GRAPHIC] [TIFF OMITTED] 95740.003
    
    [GRAPHIC] [TIFF OMITTED] 95740.004
    
    [GRAPHIC] [TIFF OMITTED] 95740.005
    
    Mr. Burton. Since Ms. Watson is not yet here, we'll go 
ahead and have our first panel start. That is the Honorable 
Troy Justesen. He is the Assistant Secretary, Acting, in the 
Office of Special Education and Rehabilitative Services for the 
Department of Education.
    [Witness sworn.]
    Mr. Burton. Do you have an opening statement, sir?
    Mr. Justesen. I do. I will try to make it quick so you have 
the opportunity to hear from the more important people here, 
which are the parents.
    First of all----
    Mr. Burton. I think what you have to say is important, too; 
and I have a couple questions for you.

STATEMENT OF TROY JUSTESEN, ACTING ASSISTANT SECRETARY, OFFICE 
OF SPECIAL EDUCATION AND REHABILITATIVE SERVICES, DEPARTMENT OF 
                           EDUCATION

    Mr. Justesen. OK, sir.
    Thank you for the opportunity to discuss our initiatives 
for children with autism and Autism Spectrum Disorders [ASD], 
and our work at the Department of Education.
    As you know, Mr. Chairman, the Individuals with 
Disabilities Education Act provides educational services for 
children with disabilities, including children with ASD, 
throughout the Nation's schools. Today, more than 6.9 million 
children with disabilities are receiving special education and 
related services, and that number continues to grow. As States 
reported in 1999 through 2002, a 1.6 percent annual increase in 
the number of children with disabilities receiving special 
education and related services. During that same time, the 
number of children with autism receiving special education and 
related services increased to an average annual rate of at 
least 22 percent.
    We acknowledge the importance of these numbers and are 
focused on identifying and implementing effective, evidence-
based practices for children with ASD.
    This year, the Department of Education is investing $8.6 
million in our discretionary funds for projects that address 
the needs of children with ASD. These investments fund a total 
of 51 projects, 31 of which focus solely on ASD, 21 of which 
are designed to improve services and prepare personnel to meet 
the needs of children with ASD as part of a larger group of 
children with low-incidence disabilities.
    I am pleased to provide to you a highlight of some of our 
efforts and our investments at the Department.
    In order to prepare highly qualified and trained educators 
to work effectively with children with ASD, we have invested in 
the Professional Development in Autism Center. This national 
research and training center is receiving $5 million over 5 
years to increase the capacity of schools, families and 
communities to meet the needs of students with ASD. This center 
provides intensive hands-on training to teams of educators. It 
also disseminates useful information and is having a national 
impact through a consortium of six States across the country 
that includes Washington, Florida, and Maryland. We also invest 
in programs that specifically address the needs of teachers and 
related services personnel.
    Under Secretary Paige's direction, we are also making 
investments in research projects in Tennessee and Florida, 
focusing on early indicators of autism in the second and third 
years of life. Through these projects researchers are now 
accurately distinguishing some children with autism from 
typically developing children as early as 12 months of age. 
This is especially significant based on research that shows 
that early and accurate diagnosis and early intervention 
results in better outcomes for children with ASD.
    Further, we continue to support model demonstration 
programs that develop and implement successful practices for 
working with children with ASD and their families. For example, 
the Seattle public school system has adopted an OSERS, which is 
the Department of Education's funded program, that blends 
several evidence-based practices and approaches to meet the 
needs of children with ASD, their families, and the educators 
that work with these children. The children who participate in 
this program have made tremendous gains across all of the 
domains of measurement. At this point, 418 children completed 
the program, and of these 58 percent of these children entered 
inclusive elementary programs.
    With the Department's support, the project trains early 
education providers, teachers and family members across the 
State of Washington and in more than 20 other States. This 
project now includes a successful outreach training component 
designed to help educators implement and evaluate school-based 
programs.
    The Department remains committed to providing support for 
families through a variety of projects. For example, we have a 
project in Boston that addresses parental involvement in public 
schools. This project promotes parental involvement in each of 
their child's educational programs and to increase the 
abilities of these parents to sustain involvement in their 
child's lives through their educational experiences. This 
project is particularly important to families of children with 
autism because in many cases their challenges are lifelong.
    We recognize the need to work with medical research and 
practice communities and with other Federal agencies. To 
accomplish this, the Department of Education, as you mentioned 
earlier, actively participates in the Interagency Autism 
Coordinating Committee, which is chaired by the National 
Institute on Mental Health.
    In closing, I want to emphasize to you, Mr. Chairman, and 
other members of the committee, that Secretary Paige and I 
recognize the vitally important work that needs to be done to 
meet the needs of children with ASD and their families and the 
educators who work with these children. We believe that the 
Individuals with Disabilities Education Act plays a critical 
role in supporting States, local districts, and parents in 
providing evidence-based practices for children with Autism 
Spectrum Disorders and their families and their families' 
friends. We remain committed to ensuring that all children are 
full participants in their homes, in their schools, and 
ultimately in their communities.
    I'd like to thank you for letting me come today and offer 
these comments, Mr. Chairman. I'm pleased to answer any 
questions you may have.
    [The prepared statement of Mr. Justesen follows:]
    [GRAPHIC] [TIFF OMITTED] 95740.006
    
    [GRAPHIC] [TIFF OMITTED] 95740.007
    
    [GRAPHIC] [TIFF OMITTED] 95740.008
    
    [GRAPHIC] [TIFF OMITTED] 95740.009
    
    [GRAPHIC] [TIFF OMITTED] 95740.010
    
    [GRAPHIC] [TIFF OMITTED] 95740.011
    
    [GRAPHIC] [TIFF OMITTED] 95740.012
    
    Mr. Burton. First of all, give my regards to Secretary 
Paige. I think he is doing an outstanding job. He's been one of 
the secretaries in the President's Cabinet that has always been 
very cooperative with the Congress, and I appreciate that.
    Ms. Watson, do you have an opening statement?
    Ms. Watson. I want to thank you, Mr. Chairman.
    Previously, autism was considered a rare disease, affecting 
roughly 1 in 10,000 children; and, according to the latest 
estimates, autism rates in the United States indicate that 1 in 
every 500 children are affected by the disorder. The rising 
prevalence of autism is disconcerting.
    Mr. Chairman, I understand the anguish and confusion that 
Autism Spectrum Disorders can cause, and I am pleased to 
acknowledge that the U.S. Government has begun to look at the 
public health implications of Autism Spectrum Disorder by 
establishing an Interagency Autism Coordinating Committee. To 
address the concerns of the autism community, the U.S. Health 
and Human Services and the Department of Education sponsored 
the inaugural National Autism Summit in November 2003.
    In addition, I commend the Chair for the autism focus of 
the Human Rights and Wellness Subcommittee. The American public 
should be informed to the best of our ability, and our Chair is 
doing that.
    I would also like to thank the Honorable Troy Justesen from 
the Department of Education for your testimony today, and we 
appreciate it so much.
    In my home State of California, the number of children 
diagnosed with autism has increased dramatically since the late 
1980's. Autism is now more prevalent than childhood cancer, 
diabetes and Down's syndrome. If the increase in autism 
caseload numbers continue, in approximately 4 years the number 
of people with autism in the California Development Services 
system will equal each population of people with cerebral palsy 
and epilepsy that are in the system.
    As a State Senator and Chair of the Health and Human 
Services Committee in California, I authored legislation to 
create a center in which research could be initiated on 
neurodevelopmental disorders. The University of California at 
Davis MIND Institute offers hope in unraveling the mystery that 
has long surrounded autism and Autism Spectrum Disorders, 
fragile X syndrome, and other developmental disorders.
    The MIND Institute brings together diverse groups, parents, 
educators, physicians, and scientists, using an integrated, 
comprehensive approach in treating and finding cures for these 
neurodevelopmental disorders. Key research under way at the 
MIND Institute includes identifying the similarities and 
differences among children with autism, understanding the 
causes, working toward prevention, creating and providing the 
best treatment.
    Mr. Chairman, it's important to encourage innovative 
wholistic approaches for treatment of the affected individuals; 
and I look forward to the presentation on the transdermal 
chelation process that is utilized by Dr. Rashid Buttar. Dr. 
Buttar and a growing number of health and science professionals 
postulate that heavy metal toxicity is at the root of several 
disorders such as Alzheimer's and autism.
    Unfortunately, chelating agents are administered through 
intravenous drip. HIV--excuse me, IVs--and there is no Freudian 
slip there; it's just a mistake--IVs are not recommended for 
repeated use in children. A transdermal application of a 
chelator is a groundbreaking treatment modality in that 
children can benefit and participate.
    It is a special treat to have Abid Buttar with us today. As 
a precocious 5-year-old, after treatment--and you can just wave 
your hand--Abid is a precocious 5-year old that, after 
treatment, can now verbalize his thoughts and play chess on his 
Scooby-Doo chessboard, as opposed to losing the ability to 
speak at 18 months.
    I am pleased to announce that the chairman and I have 
nominated Dr. Buttar to the National Institute of Health for 
consideration of the Director's Pioneer Award. The award 
provides a stipend for research in areas that are not funded by 
main stream sources.
    I also look forward to testimony from Dr. Harch, president 
of the International Hyperbaric Medical Association, and also 
Dr. Stoller. Hyperbaric oxygen therapy is a cutting-edge 
natural treatment and natural science that has shown promising 
results for patients afflicted with neurodevelopment diseases. 
Pressurized oxygen has also been used to explore the 
possibility of neuron regeneration in brain injured 
individuals.
    So I see a very exciting future, Mr. Chairman. In this 
regard I think we have a lot to look forward to and thank you 
very much. I yield back my time.
    Mr. Burton. Thank you, Ms. Watson.
    [The prepared statement of Hon. Diane E. Watson follows:]
    [GRAPHIC] [TIFF OMITTED] 95740.013
    
    [GRAPHIC] [TIFF OMITTED] 95740.014
    
    [GRAPHIC] [TIFF OMITTED] 95740.015
    
    [GRAPHIC] [TIFF OMITTED] 95740.016
    
    [GRAPHIC] [TIFF OMITTED] 95740.017
    
    [GRAPHIC] [TIFF OMITTED] 95740.018
    
    [GRAPHIC] [TIFF OMITTED] 95740.019
    
    Mr. Burton. I just have a couple of questions for you, Mr. 
Secretary. Can you give us a little of the details on this 10-
year plan in regard to autism that was established after the 
2003 Autism Summit?
    Mr. Justesen. Well, I can give you a little bit of details. 
We can certainly provide the committee with a clear explanation 
because we have a chart that was developed principally by the 
leadership of HHS in which we developed short-term, mid-term, 
and long-term goals for achieving some of the research 
questions that remain to be answered and beyond the core 
medical research questions that we still need to answer how we 
can better educate children who have been identified as having 
ASD. We have that chart that is very detailed and how we are 
working chiefly between the Departments of Education and Health 
and Human Services on those initiatives.
    We have begun--that work has just begun, because the 
conference was held, as you know, in late fall of last year; 
and our committee is meeting again in June. The Interagency 
Coordinating Committee meets again in June. We plan to meet at 
least twice a year as a group, as a full Federal committee, and 
between those core major committees to have interagency smaller 
subcommittees.
    Mr. Burton. If you could send us not only this chart you're 
talking about but any details on the timetable.
    Mr. Justesen. The chart outlines very clearly. We'll make 
sure your staff has my copy.
    Mr. Burton. We'll submit that for the record.
    The other thing I'd like to ask you is, my grandson was in 
a special education program in Noblesville, IN, which is just 
north of Indianapolis. When he first was put into the program 
so he could get speech therapy and the sorts of things that you 
need when you have autism, his doctor prescribed I think three 
sessions a week, and they said they would only give him one a 
week.
    And I know that many patients around the country have the 
same kind of problem. Their child needs continual teaching to 
try to overcome the handicaps that they might have. What does 
the Department of Education do or plan to do where the 
educational system says, OK, we can do this once a week, for 
instance--this is just an example--and the doctor says, hey, 
you should be doing it three times a week in order to get his 
speech up to where it should be?
    Mr. Justesen. Well, that's a very good question. That's a 
very complex question to answer.
    Let me take a step back. As you know, your grandson has 
what is called an Individualized Education Program [IEP], in 
which your grandchild's parents, regular and special educators 
and other qualified experts are members of a team that evaluate 
the special education and related services as well as regular 
educational needs for your grandson.
    Mr. Burton. I'm not just talking about him. I'm talking 
about all kids.
    Mr. Justesen. This is an IEP. The membership is a 
requirement under the IDEA. That team together makes a 
determination about the individualized services that child, 
regardless of the child's disability, needs in order to benefit 
from special education and regular education.
    Mr. Burton. Pardon me for interrupting--in this particular 
case, I don't think it was just the doctor alone. And I know 
other parents have probably experienced this. It was the team, 
IE, the group you're talking about, that said that he needed to 
have this kind of continual help; and the school said because 
of the financial resources that they had that they were not 
able to provide sessions three times a week.
    And the parents are really perplexed when they have a child 
that's damaged and they get one recommendation and then the 
educational system says that they can't adhere to that 
recommendation. What, if anything, is the Department of 
Education doing to try to accommodate these parents?
    Mr. Justesen. Well, the Department of Ed has oversight 
responsibility for both State and local school districts and 
their obligations to effectively implement the IDEA which, 
among other things, requires the appropriate implementation of 
what is clearly stipulated in each child's IEP. If that is not 
fully implemented, then there are concerns of which the local 
school district would be the first area of recourse for the 
parents and then the State. We have a monitoring function at 
the Federal level of each State's implementation of the IDEA; 
and Indiana is, of course, a State that we would monitor for 
compliance.
    It is commonly misunderstood at times about what is and is 
not a requirement with respect to each individual child. If 
it's in a child's IEP and it has been agreed by the child's IEP 
team, those are services that must be provided in accordance 
with what is clearly written in that child's IEP. We ultimately 
at the Federal level have the responsibility to ensure that 
basic right for each child is ultimately respected.
    Mr. Burton. That's good information, because I think not 
only the people here in the audience but I'm sure parents 
around the country would like to know what the appeal process 
is. So they go first to their legal school board and say 
they're not complying and then if that doesn't work they go to 
the State superintendent of education.
    Mr. Justesen. Well, yes--if I may, the first stage of 
course should be a discussion with the IEP team; and then 
also----
    Mr. Burton. Don't worry about that. That's just the 
President calling all of us.
    Mr. Justesen. I'm glad he is calling you and not me.
    Mr. Burton. We have a series of votes coming up.
    Mr. Justesen. But the opportunity to mediate disputes among 
members of the IEP team is very important, and we don't find--
and it isn't a good practice to resort to litigation or 
confrontation or due process as we call it under the statute to 
protect the individual rights and opportunities for the 
patients.
    Mr. Burton. I understand. I will yield to Ms. Watson. I 
understand. And that's--in our case, we talked to the teachers 
and the people in the school and then we went--what was 
necessary to make sure the law was followed.
    But I think, for everybody else, that is extremely 
important to know there is an appeals process and not only do 
you talk to the school and the teachers but you also go to the 
local school board and, if necessary, to the State; and then 
usually you can get that problem resolved.
    Ms. Watson.
    Ms. Watson. I just want to followup, Mr. Chairman. I just--
one question. It seems like you are defining your mission. Is 
the way the coordinating committee is constituted going to have 
enough influence to affect programs?
    Mr. Justesen. Well, Dr. Watson--I'm sorry, I'm an academic 
doctor, Congresswoman.
    Ms. Watson. That's all right. You can call me Dr. Watson in 
this environment.
    Mr. Justesen. I think it's important for us to have the 
opportunity as an interagency coordinating council--which isn't 
something that the Federal Government, as you well know, is 
accustomed to working beyond from one agency to another in an 
interagency perspective. We have an opportunity to build on our 
very first meeting that we held last fall and to begin working 
in and understanding that these are more than just basic 
questions that are relevant to only one Federal agency, that 
the concerns of children with autism and autistic spectrum 
disorders, pervasive developmental disorders, and other 
disorders along this spectrum, that it is the responsibility of 
the entire Federal Government and those agencies that 
specialize in providing support for their children and for 
educators and their parents.
    So, yes, give us----
    Ms. Watson. I'm sorry to cut you off. We're going to have 
to go to the floor.
    But is this part of 97-142, that funding comes underneath 
that? Because I know there was mention of the Leave No Child 
Behind, which is, at this point, unfunded mandate. So is there 
a pot of money at the States?
    Mr. Justesen. Are there funds especially for the 
interagency coordinating council? I'm sorry.
    Ms. Watson. The umbrella for autism.
    Mr. Justesen. Oh, yes, the IDEA is an investment in more 
than 6.8 million children with disabilities. That includes 
children with autism.
    Ms. Watson. So we can move forward with your agenda.
    Mr. Justesen. An investment in No Child Left Behind, which 
is an elementary and secondary--is also an investment in 
children with disabilities.
    Ms. Watson. I want to thank you so much for stating that, 
and I would hope that you would keep a strong commitment. We 
worked on it for years, as I mentioned, in California. We're 
very, very involved; and I know the Chair is. We're working 
together to see that the services are delivered so we can have 
more young children we can be proud of who have already made 
this step into a normal behavior, normal speech; and I commend 
you for your efforts as I run out the door to vote.
    Mr. Justesen. By the way, we have four research initiatives 
in California.
    Ms. Watson. Great.
    Mr. Burton. Secretary Justesen, we really appreciate your 
testimony today. Once again, give our regards to the Secretary.
    Ladies and gentlemen, we have three votes on the floor; and 
that means that we'll probably be at least 30, 35 minutes 
before we get back here. I don't want you all to just sit 
there. So if you want to get up and move around or get a Coke 
or something, go ahead and do that. But we'll be back here 
probably about a quarter after or 20 after 3.
    So we stand in recess at the fall of the gavel.
    [Recess.]
    Mr. Burton. The committee will reconvene.
    The second panel is Dr. Rashid Buttar. He is the creator of 
a transdermal chelator; and he is from Cornelius, NC.
    Would you come forward, Doctor?
    We also have Dr. Paul Harch, the president of the 
International Hyperbaric Medical Association; Dr. Ken Stoller, 
he is a doctor from Santa Fe, NM; and Ms. Julie Gordon, she's 
the founder and director of MUMS, Mothers United for Moral 
Support.
    Would you all stand and be sworn.
    [Witnesses sworn.]
    Mr. Burton. I'm sorry for the delay. As I told you, we were 
going to be tied up with some votes. If you could, try to keep 
your opening statements to around 5 minutes. I would really 
appreciate it, because we want to get to questions as quickly 
as possible.
    Let me start with Mr. Buttar, since he was the first one we 
named here. Dr. Buttar.

   STATEMENTS OF RASHID BUTTAR, DO, CREATOR OF A TRANSDERMAL 
     CHELATOR, CORNELIUS, NC; PAUL HARCH, M.D., PRESIDENT, 
  INTERNATIONAL HYPERBARIC MEDICAL ASSOCIATION; KEN STOLLER, 
  M.D., SANTA FE, NM; AND JULIE GORDON, FOUNDER AND DIRECTOR, 
MUMS--MOTHERS UNITED FOR MORAL SUPPORT, ACCOMPANIED BY SHANNON 
                      KENTIZ OF WISCONSIN

    Dr. Buttar. First, Congressman Burton, I want to thank you 
on behalf of the millions of people that appreciate what you 
have been doing. I just wanted to start off by saying that we 
all appreciate your battles that you have fought on our behalf 
for years and years and years.
    You have a presentation in front of you, I believe, a power 
point presentation.
    Mr. Burton. Let me get that real quick here. Oh, yes. OK. I 
have it.
    Go ahead, Doctor.
    Dr. Buttar. I'd like to start off by first pointing out 
that the overwhelming evidence of mercury and chronic disease 
has been reviewed and yet still it's considered to be a 
controversy.
    On the second slide there, you'll see I did a search under 
TOXLINE under the ATSDR division of CDC.
    We did a search under mercury and a number of different 
chronic diseases; and what's interesting is that, although in 
the medical literature there's very little evidence of mercury 
associated with chronic diseases, the amount of references that 
I found with mercury and cardiovascular disease, as you can see 
from that slide, amounts to 358 studies.
    Why is that important? I'll explain that in just a second.
    If you look at slide No. 3, mercury and cancer, there is 
over 643 references in the didactic literature that explains 
the relationship between mercury and cancer. Then when you go 
to the neurodegenerative area, mercury in the brain, over 1,445 
references regarding the relationship between mercury and 
neurodegeneration; and yet for some reason still it's 
considered to be a controversy. There is no controversy, as you 
know, Mr. Congressman.
    Where do we get mercury? We get mercury from everywhere: 
combustion of fossil fuels, from amalgams, from the water we 
drink--of course, we know about the Thimerosal issue with the 
vaccines--from the food we eat. So if it's idea to be so 
devastating--and why is it considered so devastating? If you 
look at the statistics from the World Health Organization that 
was published in 1998, the association between--well, they 
basically stated that 80 percent of all causes of death, which 
is not only disease processes but homicide, suicide, accidents, 
etc., 8 out of all 10 causes of death are either cardiovascular 
or cancer. And mercury is directly related to those two. When 
you take into consideration the neurodegenerative diseases, 
you're looking at 95 percent causes of all death could be 
attributable or contributed to by mercury. So this is a very 
significant problem, beyond autism and the rest of the spectrum 
that we're going to discuss today.
    Now looking at where mercury goes in the body it goes 
essentially everywhere, which you see on slide No. 8. But what 
I am here to discuss with you today that you have asked me to 
come and discuss is how do we get the stuff out.
    On slide No. 10 you'll see a patient, a 44-year-old female, 
and this is how we typically expect mercury to show up. You'll 
notice in the middle of the page at the bottom the challenging 
agent here was DMPS, a chemical that is used selectively from 
mercury and arsenic; and you'll notice that woman's mercury 
level was 65 micrograms per gram creatinin. Normal is 
considered anything less than 3.
    And as we treat this woman you see that each time we test 
her, her mercury comes down. It's down to 29 in slide No. 11. 
Down to 21 in slide No. 12. Then, in slide No. 13, it jumps up 
to 41, but that's because we added a substance of glutathione 
that potentiates the effect of the MPS and helps to pull out 
more. Then we see the continuation of the mercury levels 
dropping. It drops down to 21 again when adding the glutathione 
and DMPS.
    The point of these slides is to show that when we measure 
mercury in these tests we are not just measuring the amount of 
mercury in the body, because there is no way to accurately do 
that. The only way to accurately do that is by multiple-site 
biopsy which, of course, is not conducive to life. The only 
method that we are using right now to determine mercury issues 
is by the amount of mercury that we're pulling out. So these 
tests only show us what is being pulled out, not what's in the 
body. So we rely upon these types of tests to determine if 
mercury is an issue or not.
    In the autistic population as well as in the Alzheimer's 
population, we have a phenomena called an impaired 
detoxification pathway, meaning that they cannot get rid of the 
mercury. So when we test them, they don't show it, even using 
our techniques of--the advanced techniques of using IV 
therapies to challenge the body.
    So if you look on slide No. 16 we now have a case of a 34-
year-old woman with significant medical problems, including 
hormonal disruptions, cardiac disrhythmia. She had ataxia, she 
couldn't walk straight, she had a problem speaking, she had 
milk coming out of her breasts, and she was 34 years old. She 
was suicidal. She had 16 doctors in 5 years before she came to 
see me. I told her this was mercury. She said she had been 
checked for mercury. I told her that did not count. We had to 
do an IV treatment. She said she had this done exactly the way 
I do it.
    I called her doctor, and her doctor was one of my students 
who had come to one of my workshops and was following my 
protocol. We repeated this test. As you can see, she had no 
mercury there. This is after two tests, 2.8 micrograms per gram 
creatinin, no mercury. We have tested her twice over a period 
of year and a half.
    Then she asked me the question that basically changed how I 
practice medicine and leads me to be in front of you today. She 
asked me, if I was your sister, how would you treat me? And I'd 
like to think I treat all my patients like I do my family 
members, but I told her, if you were my sister, I would not 
rely upon this test result. I would start treating you. She 
asked me to start treating her.
    You will see on the slide No. 17 after 20 IV treatments her 
mercury level is now 9.4. It is increased exponentially. You 
will notice her arsenic level went from a mere 13 up to 260. 
This is exemplifying the point that we're here for today with 
autism. These patients cannot eliminate mercury.
    On slide 18, you see continuation of the same patient. Her 
mercury level is now 19, and yet she's getting better. So as 
the mercury level is actually increasing, what we're measuring, 
she is actually getting better, which means that this person 
was not able to get rid of the mercury on her own. In fact, 
this person, even with the appropriate treatments, was not able 
to get rid of the mercury. This is what we see with autism, and 
I will explain that just shortly.
    You see the continuation of this. On slide No. 19, we've 
gone from 2.8 to 9.4 to 19 to 27 micrograms per gram creatinin 
of mercury. This woman at this point was completely normal. She 
was symptom free.
    If you go to slide No. 22, we see what is actually going on 
here. Michael Godfrey, who is going to be a coauthor with me on 
the study that we are getting ready to publish, essentially 
found that there is a genetic predisposition--I believe there 
is probably a number of them, but the one that he found was 
apo-E allele, and we confirmed this with our study--but, 
basically, a genetic predisposition that allows for a person 
not to be able to detoxify the system as a vast majority of 
people.
    The question is always abundantly made obvious to--it's a 
recurrent question that's asked all the time in similar 
hearings and lectures, where people will say that--why is it 
that one child has this problem and their twin does not have 
the problem? If it affects one child, it should affect all the 
children. The point is that they are genetically predisposed. 
They are a canary. They're sensitive. Their system cannot 
eliminate the toxicity that they have been exposed to.
    Now, on slide 24 is a picture of my son who, fortunately, 
is here with me; and he will be happy to answer any of the 
questions after we're done. But at the age of 14 months he lost 
his speech, he lost his ability to speak, and he had--his first 
word was ``abu'' which means father in Arabic and had about 
another 10-word vocabulary. By the 15th month he had lost his 
vocabulary after about a week of--about 10 days after his 
inoculations.
    I started his treatments at the age of 3 after we got 
definitive diagnosis, and you're looking at slide No. 25: No 
mercury. Slide No. 46: No mercury. Slide No. 27: No mercury.
    But Boyd Haley, who I'm sure you're familiar with, Boyd 
Haley had a very interesting study that came up where they 
compared normally developing children with children that had 
autism. And what they found was that children that had autism 
had no mercury in their hair, whereas children that were 
developing normally had very high levels of mercury. Why? 
Because these children can get rid of mercury. That's the whole 
point. The children that are autistic cannot get rid of it.
    You'll see after six tests, on slide 29, is my son's 
mercury level. You saw four previous slides that showed no 
mercury, and now you see his mercury level on slide 29 was 13 
micrograms per gram creatinin, which is over four times the 
toxic level.
    Today, you will see for yourself what he is capable of 
doing. He's far ahead of his peers. He is speaking in two 
different languages. He reads, he writes, he plays chess, and 
there is nothing that this kid can't do.
    We decided to see if this was something just isolated. We 
did 31 patients we put on the study, all with diagnoses of 
autism, autism-like spectrum, pervasive developmental delay. 
They were all treated with the same format, transdermal DMPS 
with--it's conjugated with a number of different amino acids, 
and it's delivered in a highly specialized micro-encapsulated 
liposomal phospolipid transdermal base. All 31 patients were 
tested at baseline with urine metal screens, hair metal 
screens, blood metal screens, as well as fecal metal screens; 
and all children showed little or no mercury on initial 
testing.
    You will see in slide 37 an example of a child that was 
tested and had nothing that showed up at baseline, but as 
treatments continued these children started dumping mercury. 
You'll see on slide 39 a 400 percent increase. This is an 
average. I picked an average slide. We're right now doing the 
statistical analysis on this issue, on this study.
    And what I am talking about, recovery, I'm talking about 
full recovery: speech, cognition, ability to interact with 
others. I have 19 children documented on video that are full--I 
don't even like to call it remission, because they're not 
really remissing from anything. We're just cleaning up their 
system. But they're in normal school. You would not be able to 
tell. We have another 30-some children that we have treated 
that are well on the way of getting better.
    The issue here is that--what is the difference between 
Alzheimer's and autism? There is no difference except of when 
the exposure was made. In other words, if you take an 
Alzheimer's patient and have them fast forward into the future, 
where they were just born 5 years ago, today they would have 
autism. If you took an autistic children and they were born 70 
years ago, today they would have Alzheimer's. The only 
difference is chronic insidious exposure versus acute load of 
mercury.
    What I am here, hopefully, and on behalf of the parents of 
the children that I am treating, as well as a number of other 
physicians that have started using this treatment modality, is 
to show that the transdermal DMPS is a method of removing 
mercury, regardless of where it is coming from, and we can get 
rid of it; and then other new treatments such as nutrition, 
hyperbarics become even more efficacious in helping to 
regenerate the neurons that have been damaged from the mercury.
    Mr. Burton. This is very impressive, Doctor. It's hard for 
a layman like myself--maybe Dr. Watson can do it better--to 
keep with you when you're going through this. I think I have 
the gist of it.
    What we would like to do, I'd like to submit all this to 
HHS and CDC to have them take a look at it, let them know that 
the Congress is watching it. But I'd like to have it--in 
addition to this, maybe something written out so that the--not 
only can I follow it thoroughly but so that the people over 
there at HHS and CDC will not be able to say they couldn't 
follow it. You see what I am saying.
    Dr. Buttar. We have given you a 12-page written narrative 
to go with this, sir. I was also told I had 5 minutes to give a 
2-hour presentation.
    Mr. Burton. Well, you did pretty well. You didn't get it in 
5, but you did pretty well. You move awful fast. If you could 
move your feet that fast, you would be an Olympic runner. But 
it's very well done, very well done. We will use this, and we 
will submit it to HHS along with your analysis.
    [The prepared statement of Dr. Buttar follows:]
    [GRAPHIC] [TIFF OMITTED] 95740.020
    
    [GRAPHIC] [TIFF OMITTED] 95740.021
    
    [GRAPHIC] [TIFF OMITTED] 95740.022
    
    [GRAPHIC] [TIFF OMITTED] 95740.023
    
    [GRAPHIC] [TIFF OMITTED] 95740.024
    
    [GRAPHIC] [TIFF OMITTED] 95740.025
    
    [GRAPHIC] [TIFF OMITTED] 95740.026
    
    [GRAPHIC] [TIFF OMITTED] 95740.027
    
    [GRAPHIC] [TIFF OMITTED] 95740.028
    
    [GRAPHIC] [TIFF OMITTED] 95740.029
    
    [GRAPHIC] [TIFF OMITTED] 95740.030
    
    [GRAPHIC] [TIFF OMITTED] 95740.031
    
    [GRAPHIC] [TIFF OMITTED] 95740.032
    
    [GRAPHIC] [TIFF OMITTED] 95740.033
    
    [GRAPHIC] [TIFF OMITTED] 95740.034
    
    [GRAPHIC] [TIFF OMITTED] 95740.035
    
    [GRAPHIC] [TIFF OMITTED] 95740.036
    
    [GRAPHIC] [TIFF OMITTED] 95740.037
    
    [GRAPHIC] [TIFF OMITTED] 95740.038
    
    [GRAPHIC] [TIFF OMITTED] 95740.039
    
    [GRAPHIC] [TIFF OMITTED] 95740.040
    
    [GRAPHIC] [TIFF OMITTED] 95740.041
    
    [GRAPHIC] [TIFF OMITTED] 95740.042
    
    [GRAPHIC] [TIFF OMITTED] 95740.043
    
    Mr. Burton. Dr. Harch.
    Dr. Harch. Chairman Burton and distinguished members of the 
committee, thank you for this wonderful opportunity to speak 
before you today.
    Before I get started, I wanted to make an announcement. The 
International Hyperbaric Medical Association and American Board 
of Clinical Metal Toxicology as well as Oklahoma University 
Health Science Center and School of Medicine is going to 
conduct the first evidence-based medicine study on the only two 
effective therapies that have been identified for autism: 
Hyperbaric Oxygen Therapy and chelation therapy. We're going to 
have an Internet-based study that will allow us to enter 
patients with autism from all over the country. What we're 
proposing to do is do a sequence of chelation therapy, 
hyperbaric oxygen chelation and hyperbaric oxygen, with testing 
before and after treatment.
    As Dr. Bob Nash and I have pointed out, this is the only 
study that will address two of the major underlying problems 
with the majority of autism cases: No. 1, the poisoning and 
stunning of neurons by mercury; and, second, the rebuilding of 
a stunted brain with hyperbaric oxygen.
    I wanted to point out that the State of Wisconsin has 
recently announced a retraining program for autistic children. 
It's a 3-year program, $30,000 per child per year. And, 
unfortunately, at the end of 3 years we're going to spend 
$90,000 per child; and the children will still be autistic, 
with maybe some improvement in behavior.
    The problem is that the central flaw--you cannot retrain a 
stunned, stunted brain and poisoned brain. What we're going to 
do for $20,000 is be able to treat these children with this 
combination therapy and likely return a substantial number of 
them to near normal function and better lives.
    A word about how I got into this. I made a discovery back 
in the late 1980's and early 1990's treating our divers in New 
Orleans with brain decompression illness. Specifically, what we 
found was divers who had failed standard U.S. Navy treatment 
and months to years later were disabled by neurocognitive 
problems, I was able to bring back and subject to a lower 
pressure protocol of Hyperbaric Oxygen Therapy and improve them 
dramatically. We used functional brain imaging before and after 
a hyperbaric treatment to identify that injured area of brain 
that could respond with a repetitive course of treatment and 
then document it with a repeat scan.
    Well, we then extended that: patients with boxing injury, 
other causes of traumatic brain injury, chronic stroke, 
cerebral palsy--the first cerebral palsy cases treated in North 
America were treated at our facility in 1992 and 1993--toxic 
brain injury, and then, of course, autism.
    In the course of 15 years and approximately 400 patients 
now we've had about 20 patients with Autism Spectrum Disorders, 
persistent developmental delay and autism; and what we found is 
three things.
    No. 1, there seem to be in a lot of these children a low 
blood pressure, low oxygen, low blood flow insult to the brain 
either in late pregnancy, at the time of birth, or shortly 
after birth that was either unappreciated, obscured or, 
frankly, covered up. Second, much of the brain injury we saw 
was at the base of the brain involving the temporal lobes. And, 
third, that these children could be improved with hyperbaric 
oxygen, although we wouldn't cure them.
    So over the course of these years we found the autistic 
children responded much like the divers, the trauma patients, 
and all the other now 50 different neuropathologies that we 
have treated; and there's a reason for it. But essentially what 
I am here to tell you is we have a treatment for brain injury 
that will revolutionize the treatment of brain injury in the 
world.
    As I told Chairman Regula last week in testimony before his 
committee, it has now been shown with over 40 years of research 
that a single high pressure hyperbaric oxygen treatment at the 
time of a low blood flow, low oxygen insult to the brain can 
nearly completely negate the effect of that insult. So had my 
autistic children been treated likely at the time of that 
injury, they wouldn't be autistic today.
    In fact, this is suggested by a study that was done in 1963 
and published in the world-famous Lancet by Dr. Hutchinson in 
England. He took 65 babies born not breathing who failed 
resuscitation, and when everything failed he put them in a 
hyperbaric chamber, gave them a single hyperbaric treatment. At 
the end of the day, 54 percent of them were discharged from the 
hospital, ``apparently well.'' We know now that this could 
treat the vast majority of injuries to human beings in the 
world.
    Unfortunately, if you're a child, the only way you can get 
this is--you can't get it. You have to be a high-priced 
thoroughbred racehorse newborn foal that is affected by low 
oxygen and blood flow in Lexington, KY, or Florida and you'll 
get in a hyperbaric chamber for your injury.
    So we also have a treatment for chronic brain injury, and 
we've shown that, and amongst those are the autistic children.
    So, in summary, what I want to tell you is we have a 
preventative treatment for autism, and we have a treatment for 
autism. It's hyperbaric oxygen. Combined with chelation therapy 
such as Dr. Buttar's, we believe we can return the substantial 
majority of children in the Untied States and the world to 
improved levels of near normal function; and we are going to 
prove it in the next 3 years with this evidence-based study.
    Thank you so much.
    Mr. Burton. That's very good news as well. And I presume we 
have detailed analysis and testimony that we can use and also 
submit to the health agencies.
    Dr. Harch. They've seen it.
    Mr. Burton. Well, they'll see it again.
    Dr. Harch. Good. In fact, Mr. Chairman, I presented this to 
the MIND Institute in Sacramento a few years ago; and they were 
not particularly interested. We're hoping they might be more.
    Mr. Burton. We'll send it to the powers that be over there 
with a personal letter, hopefully from myself and Ms. Watson; 
and we'll try to make sure that they take a look at it.
    Dr. Harch. Thank you.
    [The prepared statement of Dr. Harch follows:]
    [GRAPHIC] [TIFF OMITTED] 95740.044
    
    [GRAPHIC] [TIFF OMITTED] 95740.045
    
    [GRAPHIC] [TIFF OMITTED] 95740.046
    
    [GRAPHIC] [TIFF OMITTED] 95740.047
    
    [GRAPHIC] [TIFF OMITTED] 95740.048
    
    [GRAPHIC] [TIFF OMITTED] 95740.049
    
    [GRAPHIC] [TIFF OMITTED] 95740.050
    
    [GRAPHIC] [TIFF OMITTED] 95740.051
    
    [GRAPHIC] [TIFF OMITTED] 95740.052
    
    Mr. Burton. Dr. Stoller.
    Dr. Stoller. Chairman Burton and distinguished member of 
the subcommittee, thank you for this opportunity to speak with 
you today.
    Ignoring hyperbaric medicine has come at a great societal 
cost. The past is the past. I am here with one of my patients, 
10-year old Augusta Skoog, who began life as an 11-week preemie 
with the most severe grade of intraventricular bleed in her 
brain. She has the diagnosis of cerebral palsy but began her 
Hyperbaric Oxygen Therapy last year. It is now 2004, and we can 
document either by spec scan or neurocognitive evaluations 
concrete evidence of dramatic improvements children with brain 
injuries can make if they can receive treatment with Hyperbaric 
Oxygen Therapy.
    These neurocognitive changes are, in many cases, quasi 
miraculous, given the short time required to manifest these 
permanent improvements. Every published research study that has 
looked at the efficacy of using Hyperbaric Oxygen Therapy to 
treat children with cerebral palsy has found significant levels 
of improvement. The most recent study published in the United 
States was in the U.S. Army Medical Journal in 2002.
    Brain injuries that are considered irreversible and 
incurable, such as the case of fetal alcohol syndrome now being 
treated in New Mexico, do respond to Hyperbaric Oxygen Therapy, 
respond immediately, and can now be documented. Fetal alcohol 
syndrome, for example, is one of the leading causes of mental 
retardation in this country.
    The government and Medicaid are the insurers of last resort 
for most of these children, and the cost is astronomical. The 
CDC reports that the overall economic cost for just one child 
with cerebral palsy is $40 million over their lifetime.
    Yes, the past is the past. Now there is a therapy for brain 
injury, replete with documentation that can return people to 
work, return them to school, and give them a life worth living, 
as well as drastically reducing government costs for these 
brain injuries. So can these children get treated with 
Hyperbaric Oxygen Therapy? After all, Medicaid's EPSDT statute 
says that any treatment that either corrects or ameliorates, be 
it a covered benefit of a State plan or not, shall not be 
denied a handicapped child. However, most States ignore this 
aspect of Medicaid law and force families to take legal avenues 
to seek reimbursement. This week, Augusta was denied for the 
third time by New Mexico Medicaid from getting Hyperbaric 
Oxygen Therapy, despite both her pediatrician and neurologist 
requesting it for her.
    Medicaid law, the science of Hyperbaric Oxygen Therapy, and 
prudent economics are all present behind this therapy. It is 
time for it to be made known and available to all brain-injured 
children, even if it requires Congress to remind State Medicaid 
programs of their obligation in regard to brain injury and 
hyperbaric therapy.
    It is important to support evidence-based medical programs 
such as the Oklahoma University Center of Autism. It is 
important to mandate that State Medicaid programs do literally 
obey the law. It is important to help bring Hyperbaric Oxygen 
Therapy to the forefront if for no other reason than to save 
everyone's precious health care dollars.
    There is a pernicious catch-22 at work. As most State 
Medicaid agencies have decided their reimbursement policies for 
Hyperbaric Oxygen Therapy should be modeled after Medicare 
policy but the Medicare policy on Hyperbaric Oxygen Therapy is 
formulated based on research and data collected on people age 
65 and older, CMS will reject petitions made to it for new 
cases that are not relevant to this population; and, therefore, 
Hyperbaric Oxygen Therapy for brain-injured children does not 
have any opportunity to be covered no matter how much research 
is presented. That is simply the way the system operates at the 
moment.
    How can a Medicaid HBOT policy for children truly provide 
services for children if its plan is based on a government 
model that is not designed for children? It makes no financial 
sense to use the Medicare model on which to base health care 
decisions for children, particularly brain-injured children.
    Thank you very much.
    Mr. Burton. Thank you, Dr. Stoller. I presume that we have 
a detailed statement.
    Dr. Stoller. Yes. I provided testimony. The graphs of 
Augusta's incredible and dramatic neurocognitive changes are 
documented in the testimony, as well as the fetal alcohol 
syndrome case I was talking about.
    Mr. Burton. We just want to have as much information as 
possible so we can submit it in the right way.
    [The prepared statement of Dr. Stoller follows:]
    [GRAPHIC] [TIFF OMITTED] 95740.053
    
    [GRAPHIC] [TIFF OMITTED] 95740.054
    
    [GRAPHIC] [TIFF OMITTED] 95740.055
    
    [GRAPHIC] [TIFF OMITTED] 95740.056
    
    [GRAPHIC] [TIFF OMITTED] 95740.057
    
    [GRAPHIC] [TIFF OMITTED] 95740.058
    
    [GRAPHIC] [TIFF OMITTED] 95740.059
    
    [GRAPHIC] [TIFF OMITTED] 95740.060
    
    [GRAPHIC] [TIFF OMITTED] 95740.061
    
    [GRAPHIC] [TIFF OMITTED] 95740.062
    
    [GRAPHIC] [TIFF OMITTED] 95740.063
    
    [GRAPHIC] [TIFF OMITTED] 95740.064
    
    [GRAPHIC] [TIFF OMITTED] 95740.065
    
    [GRAPHIC] [TIFF OMITTED] 95740.066
    
    Mr. Burton. MUMS. How did you come up with that?
    Ms. Gordon. One of the children in our group when we were 
discussing it came up with it.
    Mr. Burton. So you came up with the word MUMS. Then you 
added the words to it.
    Ms. Gordon. Right.
    Mr. Burton. Well, you did a good job. Ms. Gordon.
    Ms. Gordon. I want to thank you for allowing me to testify 
and represent the parents of this Nation that have discovered 
what hyperbaric oxygen can do for their children who have 
autism and brain damage.
    When my daughter Jessica was born 30 years ago, she 
suffered brain damage from a loss of blood. We were both 
hemorrhaging through the umbilical cord, and she was born dead 
and resuscitated, and we were both given ice-cold blood.
    In those days, babies like Jessica went to institutions and 
not home. In fact, the Federal law allowing them to even go to 
school wouldn't be passed for 2 more years. So we had a lot of 
battles ahead of us, and today is another battle that I am 
fighting for children like Jessica and for babies yet to be 
born so that they won't have to go through what our family went 
through and that we continue to go through.
    I had to give up my teaching career. I had a set of twins 
and then got divorced. The girls and I were forced to go on 
SSI, welfare, food stamps, Medicare. It was very stressful and 
degrading to have two college degrees and to be forced to 
accept Government help.
    So disabilities in the families are not only emotionally 
but financially devastating to our children and the whole 
family and the Government.
    I realize now that all of this could have been prevented 
with a little over $3 worth of oxygen. Loss of blood is one of 
the non-approved conditions for treatment for Hyperbaric Oxygen 
Therapy. I strongly believe now if Jessica had gotten the 
therapy immediately, she would have gone home a normal baby.
    Instead, I was sent home with a seizuring, spastic, 
screaming infant with no referral for any therapy or any 
support. Twenty-five years ago, I started a support group in 
order to network with other parents whose children also had 
disabilities. The group has since changed the name of MUMS to 
the National Parent-to-Parent Network, because we have a lot of 
fathers involved, and we wanted to include them in our name.
    We became international. We now have 19,300 members from 54 
countries. Through a newsletter from England, I read about 
Linda Scotson, whose 14-year-old son was blind and deaf and in 
a wheelchair, and she had treated him with Hyperbaric Oxygen 
Therapy, and that he was walking, talking, and was so 
coordinated that he could ride a two-wheel bike with no hands.
    So I was pretty skeptical. But I called Linda. And she told 
me that he she had a hyperbaric chamber in her living room; she 
was treating other children. And later on, I found out that 
there were 500 children in England getting treated that had 
brain injury, and they were improving.
    And the chambers they were using were 100 chambers that--
clinics that were set up to treat muscular--multiple sclerosis 
for free, through a charitable trust. And they would allow 
children with brain damage to get treated for a nominal fee. 
Once I shared this information in my newsletter about 
hyperbarics, more and more parents started wanting information.
    Two of my members went with their 8- and 10-year-old 
daughters out to Florida and got--only 14 treatments is all 
they could afford. Their daughters improved so much when they 
came back, one of them raised money and has a chamber in her 
home. And the other one, her husband used a propane tank and 
tried to make a chamber. I knew then how desperate parents were 
and what an impact finally having a hope for improvement in 
their child's brain damage would do.
    Once it was published in the newsletter, it really started 
a parents' worldwide movement to get hyperbaric covered for 
children. Stories poured in, articles, MUMS found--one of our 
MUMS went to--Claudine Nadeau from Quebec--brought her twin 
sons to Canada. And when she came back with them, Dr. Marois, 
who was their physiatrist, pediatric physiatrist, was so 
impressed with their improvements that they both approached the 
McGill University and got a study where 25 children only 
received 20 treatments, but they all improved.
    Then a group of parents in Quebec formed, and they demanded 
and put pressure on the government that they do another study. 
I am just trying to point out that the information is out 
there, that parents are demanding this, and that there is no 
way to stop us.
    We will go to England and Canada. And what is frightening 
is some of the parents are talking about, on the listserve, 
going to the bottom of swimming pools with scuba gear and 
treating with 100 percent oxygen.
    We have had a lot of parents whose children have autism, 
that the children have totally turned around. My own daughter, 
who was functioning at a 5-year-old level, she was 25 when I 
got her treatments. And you could say anything in front of her. 
I had a friend call me, and she said, ``Julie, what did you do 
to Jessica?'' and I said, ``What do you mean?''
    And she said, ``Well, last year, I went to her program, and 
I asked her a question three times. And she finally pointed to 
yes.'' She said, ``This year, I went, she drove up to me in her 
power chair, and asked me how my dog was.'' This is the 
different Jessica. Sorry. But the stories are pouring in.
    And dramatic stories like Kevin Fickle who was 18-months-
old, it was shortly after a vaccine, he got meningitis, went in 
a coma, five strokes to the brain, all organs shutting down. 
And his--Dr. Hernandez luckily knew about hyperbarics, but 
couldn't put him in the chamber until a sore developed, so he 
could justify treating a wound.
    Kevin, today, is now normal. All he has is a slight speech 
impediment that probably would have been prevented if he had 
gotten treatment right away. Doctors call me and admit they are 
sneaking the children in the chamber. One doctor told me that 
his 51-year-old friend had a viral encephalopathy, and he was 
brain dead. All of the tests showed he should be removed from 
life support. And he tried hyperbarics, and he said he walked 
out of the hospital on his own accord, not well.
    And I said, ``Why aren't you screaming this from the 
rooftops?'' And he said, ``I would lose my job.'' So this is 
what medicine has come to. The doctors know it works, but they 
are not allowed to talk about it or use it.
    We have a child we brought today that, I think, she is 
wanting to be heard from. Shannon called me, and Gracie was 
on--they, again, wanted to unplug Gracie. But she said--she had 
called me crying, saying, ``I can't let my baby die.'' And I 
told her about hyperbarics. She took her by ambulance to 
Florida. And this little girl is blind, in a coma, all of the 
other children, this is a rare mitochondrial condition, 
Cytochrome-C-Reductase Disorder. The doctor said, ``There are 
only five in the world. They are all dead by 2. Let her go. And 
Shannon, you want to bring her up.''
    And her mitochondrial disease has gone. There are 40 
mitochondrial diseases. My point is, we don't know what will 
work for us. But this little girl is the oldest living child 
with this condition. And she keeps getting better with all of 
the treatments.
    So I just want to say one final thing, that I think after 
the testimony you heard today, if you have a loved one that 
incurs brain damage, you will be looking for the closest 
chamber, too. Thank you.
    [The prepared statement of Ms. Gordon follows:]
    [GRAPHIC] [TIFF OMITTED] 95740.067
    
    [GRAPHIC] [TIFF OMITTED] 95740.068
    
    [GRAPHIC] [TIFF OMITTED] 95740.069
    
    [GRAPHIC] [TIFF OMITTED] 95740.070
    
    [GRAPHIC] [TIFF OMITTED] 95740.071
    
    [GRAPHIC] [TIFF OMITTED] 95740.072
    
    [GRAPHIC] [TIFF OMITTED] 95740.073
    
    [GRAPHIC] [TIFF OMITTED] 95740.074
    
    [GRAPHIC] [TIFF OMITTED] 95740.075
    
    Mr. Burton. Well, thank you, Ms. Gordon. I really 
appreciate what MUMS are doing and the information you have 
given us.
    Dr. Weldon, who is with us, he has to leave. If you don't 
mind.
    Ms. Watson. No.
    Mr. Burton. I would like for him, since he is a physician--
he is very interested in the mercury aspects of autism and all 
these other things. He can be a big help to us in communicating 
with our health agencies.
    So, Dr. Weldon, do you have some questions or comments?
    Mr. Weldon. Yes, I do, Mr. Chairman. And thank you for 
inviting me. It is great to be back. I miss the committee. 
Though I must admit, you worked me pretty hard when I was on 
the committee.
    I certainly thank the ranking member as well for giving me 
the opportunity to be here.
    Mr. Weldon. Dr. Buttar, you used DMPS as your chelation 
agent?
    Dr. Buttar. Yes, I have been using DMPS for about 8 years 
intravenously and about 2 years in transdermal form.
    Mr. Weldon. You have to forgive me, I got called out when 
you were beginning your testimony. I thought I saw one of your 
slides that talked about administering an oral chelating agent 
as well. Is that correct?
    Dr. Buttar. DMPS was developed in Russia. It had actually 
been used in Europe for 50 years. Its method, primary method of 
application is actually oral dosing.
    The problems are that, first, it is 50 percent absorbed, 50 
to 55 percent absorbed through the gastrointestinal mucosa.
    The second problem is in the children that we treated with 
the DMPS orally; within 5 to 7 days they started having 
abdominal cramping and pain.
    And third, this patient population, as most of the patient 
population that I deal with, have already altered gut function. 
They have basically chronic GI distress, GI dysbiosis, many 
other types of digestive problems and absorption problems.
    And so these children were not getting better with the oral 
version. That is when we went to the transdermal. We had 
actually used the transdermal previously in adults but found it 
not to be as efficacious as the IV, because IVs are done every 
other week. And the transdermal was not yielding as much 
mercury as the IV version.
    Mr. Weldon. And tell me about your transdermal application. 
How do you do that? What is the technology involved there?
    Dr. Buttar. It is--DMPS----
    Mr. Weldon. Is it a commercially available product?
    Dr. Buttar. No, sir. DMPS is not approved in the United 
States. Its sister product, which is DMSA, which is made by the 
same manufacturer out of Germany, is approved but happens to be 
a neurotoxin.
    DMPS is something that has, for some strange reason, the 
only way it was approved--let me take that back. It was--it has 
been approved for bulk compounding pharmacy usage, but that was 
only for 3 years. And now, strangely enough, since 2001, we 
can't find any information from the FDA. FDA is right now 
pushing for compounding pharmacies----
    Mr. Weldon. The question I really had is, do you just apply 
it to the skin and put an adhesive bandage on it?
    Dr. Buttar. No. Actually it is--I should have brought some 
with me, and my son would have demonstrated how to use it. But 
it is drops. DMPS is highly oxygen reactive, so it has to be 
stabilized. Once we stabilize it, we conjugate it with certain 
amino acids, including Glutathione, and then--it is a lotion, 
essentially.
    Mr. Weldon. A lotion?
    Dr. Buttar. A lotion. It is dosed at 1.5 milligrams per 
kilogram. It is drops, 1 milligram per drop. And a child just 
takes it themselves. It is dosed every other day, because it is 
very effective at pulling out mercury and arsenic, but it is 
not selective. It pulls out essential minerals.
    Mr. Weldon. You used the transdermal, though. Are you 
applying it to the skin?
    Dr. Buttar. That's correct.
    Mr. Weldon. So the children just rub it on their skin?
    Dr. Buttar. That's correct. To the volar aspect of the 
forearm, to the latissimus area, anywhere that has a high 
vascular supply.
    Mr. Weldon. In bathing, the mercury is withdrawn, or they 
absorb it into their body, and it comes out in the urine?
    Dr. Buttar. Actually, what our study showed was that we--we 
measured it actually increasing your hair yield, fecal as well 
as urine. So it is hepatically--it may even be hepatically 
treated, but it is basically--primarily the body excretes 
mercury through the biliary system. But we have seen it being 
excreted through the renal system as well as through the hair.
    Mr. Weldon. Dr. Harch, are you on the faculty at the 
University of Oklahoma? Did I hear you say that?
    Dr. Harch. No. I am not. LSU, New Orleans. I am on the 
faculty there.
    Mr. Weldon. You are on the faculty at LSU?
    Dr. Harch. I am working with the Oklahoma School of 
Medicine.
    Mr. Weldon. OK. Have you published any of the studies that 
support the claims that you made in your testimony?
    Dr. Harch. Some. It has plainly been in book chapters. 
There have been some isolated articles as well. And we have an 
animal model now that we are doing the final preparation for 
manuscript for.
    Mr. Weldon. A lot of the resistance on the part of insurers 
and third-party payers is the failure to develop an adequate 
body of knowledge published in the peer-reviewed literature 
supporting the claims and assertions regarding the applications 
of Hyperbaric Oxygen Therapy.
    And is your professional association moving to develop the 
documentation necessary to obtain wider acceptance within the 
medical profession of Hyperbaric Oxygen Therapy? Because I have 
seen people have come to my office and shown me these case 
reports that are very, very dramatic. And it would seem to me 
that you should be able to publish some of this information.
    Dr. Harch. The answer is yes. We are trying to disseminate 
that information.
    The other answer is that a surprising amount of this 
information is available and previously published. And I will 
just give you an example.
    In 1992, the Journal of Neurosurgery of Rockswold, 168 
patients, randomized prospective controlled trial of hyperbaric 
oxygen in acute severe traumatic brain injury, highly 
significant reduction in mortality, 60 percent reduction in 
mortality in the hyperbaric oxygen group.
    They have another study that is now showing a similar type 
of effect. But this is an irrefutable study. The problem was, 
even though it is the same outcome used by the certifying 
bodies for reimbursement of hyperbaric oxygen, they did not 
have patients--a greater number in the hyperbaric group--in the 
high outcome group.
    The fact that is lost on them is that they saved 60 percent 
of these people. If we compare this to American Heart 
Association Cardiac Arrest, for instance, they have such dismal 
outcomes, and they are just looking for any degree of survival.
    There is actually a followup study that was published 2 
years ago, Journal of Neurosurgery, same group, Rockswold. They 
went back and did the same severe traumatic brain injury group, 
or equivalent, and did elegant metabolic studies. And what they 
showed was a single hyperbaric treatment could recouple brain 
bloodflow and metabolism in an injured brain.
    Never been demonstrated in the history of science. It is 
out there. And unfortunately, it hasn't been appreciated or 
picked up. It is a political issue, partly, in medicine. I can 
discuss it with you. But----
    Mr. Weldon. Well, actually I am----
    Mr. Burton. Before you leave, I would like to know, real 
briefly, why you say it is a political issue. I would like for 
him to elaborate real quickly.
    Dr. Harch. Well, basically it is--I am going to be real 
blunt about this. There has been a group of doctors who have 
controlled the supply of information on Hyperbaric Oxygen 
Therapy through a medical society. And there has been an 
intense hatred by one of them, an ex-president, for the man who 
originally developed some of this information, Dr. Neubauer.
    And with this institutionalization and the destruction of 
his reputation, the science of what he says has been thrown out 
and, for years, everything associated with it. And that, in a 
nutshell, is why this has been stunted in its application and 
dissemination. It has been at a medical society level. It is a 
personal doctor issue. And I can verify that.
    Mr. Weldon. I was just going to add, for the record, one of 
my partners when I practiced medicine was certified in 
hyperbarics. And sometimes, he would take the weekend off, so I 
would pick up his cases. And so I had to learn a little bit 
about it. And I have seen some significant outcomes from its 
application.
    Mr. Chairman, I have to go. Thank you very much for 
indulging me.
    Mr. Burton. Thank you.
    Mr. Weldon. Also, thank the ranking member.
    Mr. Burton. As you leave, though, we will be drafting some 
letters with questions to the HHS people. We would like to have 
you as a signatory to the letters to try to find out their 
reasons.
    Mr. Weldon. I would be very happy to support you in that.
    Ms. Watson. May I, before Dr. Weldon leaves. Mr. Chairman, 
I just want to comment before you leave, Doctor.
    I would hope that we would send a very strong letter to be 
able to locate the research and the findings and publicize it, 
because it goes beyond a political problem. It goes to 
depriving those who could benefit from this discovery.
    My experience with hyperbaric chambers was down in 
Micronesia when we had people diving too deep and drownings and 
so on. But this is the first that I heard that brain injuries, 
and I guess it makes sense, get oxygen to the brain, maybe 
heart problems and so on, could be affected by the hyperbaric 
chambers.
    And so I just wanted to say that before you left so you 
will join with us in very strong support on releasing the 
research.
    Mr. Weldon. I would be glad to do that. Thank you.
    Dr. Harch. Congressman Watson, can I respond?
    Mr. Burton. I am going to yield to Ms. Watson now, and you 
can respond to her as Dr. Weldon leaves, and she can ask any 
questions.
    Dr. Harch. The actual other issue for Dr. Weldon is that 
there has been a failure by the medical community of hyperbaric 
medicine to adequately explain what is going on with hyperbaric 
oxygen. And what is happening in chronic wounding is that the 
intermittent exposure to oxygen is causing growth of new 
tissue.
    You cannot have that unless you go through the DNA of the 
cell to then begin to transcribe new proteins, growth factors, 
etc. In the last 6 years now, elegant and molecular biochemical 
experiments have been done showing that hyperbaric oxygen 
signals the DNA to begin the transcription of sequences that 
code for growth hormones, growth receptors and so on.
    And that is the secret behind what has happened with 
Shannon Kentiz' daughter, Gracie. In a mitochondria disorder 
thought to be DNA-linked, hyperbaric oxygen is signaling and 
affecting the DNA and effecting a permanent change in this 
child. That is the underlying basis of hyperbaric oxygen.
    Dr. Buttar. Excuse me.
    Before Dr. Weldon leaves, Congressman Burton, is it all 
right for this 5-year-old, who, at the age of 3, was not 
speaking at all, to address the chairman and the respective 
Members of Congress that are here?
    Mr. Burton. Only if he doesn't challenge me to a chess 
match.
    Master Abid Buttar. Mr. Burton and Ms. Watson and Dr. 
Weldon, thank you for helping my dad getting all people better 
and children better.
    Ms. Watson. I just want to say, this is kind of like a 
miracle that we are hearing.
    And thank you so much, Dr. Buttar, for bringing him.
    And Abid, thank you so much for speaking to us. And you did 
that very well.
    Master Abid Buttar. Thanks.
    Ms. Watson. I just want to say, the politics of medicine is 
as rigorous as the politics that we are into. We are going 
through the same thing in another area of medicine with 
dentistry and the filling and mercury fillings, amalgam. And we 
have the American Dental Association against us. And we had the 
California Association as well.
    And I authored legislation over 14 years ago now, to just 
inform parents of the risks and the benefits. And we don't have 
a piece out that is what I would consider practical, 
informative and truthful. And that is because it is cheaper to 
put the amalgams in.
    But in terms of hyperbaric chambers and hyperbaric 
medication, what would be the cost of a struggling family? And 
I heard $30,000 somewhere, I guess for a specific case. But can 
the ordinary, average family afford this treatment?
    Dr. Harch. Well, you might want to ask the families that. 
They go through considerable sacrifice to get this, because 
they often have to travel at distances, because the hospital-
based physicians where these chambers are located have been 
threatened by the medical society for treating something that 
is not on this list, that is only partially supported by 
science.
    Mr. Burton. Is that the AMA you are talking about?
    Dr. Harch. Oh, no, it is not. It is the Undersea and 
Hyperbaric Medical Society.
    Mr. Burton. OK.
    Dr. Harch. And so what has happened is, the cost of this 
has now been shifted to outpatient freestanding centers where, 
if in a doctor-attended facility, you are able to access this, 
you pay $150 to $200 a treatment. At centers that are run by 
parents, other individuals, groups that have gotten together, 
it is $50 or $100 a treatment, even. People have even used 
portable chambers. They now are putting them in their homes and 
delivering the treatment very cheaply.
    So the actual cost of the treatment is not substantial, 
compared to the hospital billing for this. The hospitals are 
charging, combined doctor and hospital fee, up to $1,400 per 
hour. It is prohibitive. It is a disgrace. And it is 
unnecessary.
    Ms. Watson. Is this to try to force you not to use that 
procedure?
    Dr. Harch. No.
    Ms. Watson. What is the cost----
    Dr. Harch. To maximize reimbursement. It is gouging. It is 
not cost.
    Dr. Buttar. If I may, Congresslady Watson, if I may address 
this also. It is a similar reason that chelation therapy 
intravenously is considered to be a part of alternative 
medicine, if you will. Yet every emergency room in every city 
in our country, the only method that is approved by the FDA of 
removing acute lead for lead toxicity is EDTA infusion.
    They charge $980 for an infusion in the hospital. But if 
you add a couple of minerals to it and some vitamins to it and 
you do it in the doctor's outpatient office, then it is called 
chelation therapy, although it is only $150.
    Same treatment, less constituents within the treatment, and 
it is called a different treatment. And it is not reimbursable. 
Again, it is a money issue, just like Dr. Harch said.
    Ms. Watson. I am trying to understand. I heard somewhere 
along the way that it took just one treatment. Was that for an 
infant?
    Dr. Harch. No, it is for adults. I said I have treated 
approximately 400 patients. Over half of them are adults.
    Part of the problem is also this is an off-label, off-FDA-
label use of hyperbaric oxygen, at least for a number of the 
neurological applications. And that is one of the other reasons 
that it has been difficult to get in the hospitals.
    Ms. Watson. Where are these chambers located? Are they 
located throughout the country? Is it a regional approach that 
is taken with hospitals in using one site?
    Dr. Harch. No. No. They are spread throughout the country. 
There are approximately 600 facilities now that are hospital-
based.
    And due to recent changes in Medicare reimbursement, two 
things: One was the approval of treatment of diabetic foot 
wounds, which we had a very large part in getting approved.
    And the second is a doubling of the hospital-based 
reimbursement for this. Hyperbaric facilities are now being put 
in hospitals all around the country. Additionally, hyperbaric 
chambers are being put in freestanding facilities. And to my 
knowledge now, there are maybe 130 of those.
    So there are over 700. The numbers that are increasing are 
substantial.
    One for-profit company that I know of, there are probably--
I am going to say 8 or 10 large ones, putting a new facility in 
a hospital approximately every, oh, 2 to 3 weeks. So we are 
seeing a substantial increase in installation of chambers, 
which will translate into increased usage, but not necessarily 
for these more devastating neurologic problems.
    Ms. Watson. I am not clear on the coverage. Would Medicaid 
cover it?
    Dr. Harch. That is a big fight right now. Medicaid has two 
tracks. One is medical necessity. And one is necessity to--or 
not necessity, but to ameliorate or correct problems with 
disabled children.
    And it is under that that Hyperbaric Oxygen Therapy likely 
will be reimbursable. Unfortunately, it is in the courts right 
now.
    Ms. Watson. Medical necessity?
    Dr. Harch. No, no, no. On this statute, amelioration or 
correction.
    Ms. Watson. Is medical necessity coverable?
    Dr. Harch. Tricky. It is on this other list of FDA 
indications, many of which do not have any remunerative science 
that there is behind the treatment of cerebral palsy with 
hyperbaric oxygen.
    But again, I am going to go to politics. It was approved by 
a group of doctors, some who had a very personal interest 
because that was their pet subject. And in fact, it got 
approved. Once approved, it was adopted by the FDA, adopted 
somewhat by Medicare, third party insurers, and Medicaid.
    So what has happened is, the Medicaid reimbursement for 
these things is not necessarily tied to science. And one of the 
indications which had the greatest science for we don't have 
reimbursement for.
    Ms. Watson. Well, I am hoping that this committee can be 
instrumental in gathering the scientific evidence, the 
empirical evidence and making it public through HHS or through 
one of our agencies. I think it is an absolute necessity that 
we do that.
    And I think it might require, Mr. Chair, some additional 
legislation to be sure that this treatment is recognized and 
covered under one of our programs. And I don't know exactly--we 
would have to kind of research where it should be.
    Because to see the results that I see in this room, 
convince me that we have a void there, and we have to let a lot 
of children and adults just languish out there when they could 
be affected very positively and their health could improve.
    Dr. Harch. Thank you. We were praying that you would get 
into this.
    Mr. Burton. Well, your prayers have been answered.
    You know, you don't need to do that. Do we have anybody in 
here from the Food and Drug Administration or HHS? I didn't 
think so.
    What we will do, though, is we will need as much 
documentation, and we need it, if you will, in as much as 
possible layman's language so that we understand it. And we can 
also put it in the kind of question format that they will 
understand and that they will know that we know, so that they 
have to respond. If I send a bunch of hyperbole over there that 
they know Congressman Burton is not a doctor and Dr. Watson is 
not a medical doctor, they might be able to, you know, give us 
the shuffle off to Buffalo.
    But if it is in layman's language and we ask questions that 
are readily understood, then they will have to respond in like 
kind. And I know that Dr. Weldon, who does have the knowledge 
to be of great assistance, and Dr. Watson and I will be very 
happy to pursue this.
    But we need the facts. We need the documentation, too, but 
we need the facts so that we can write an intelligent letter 
that they will have to respond to.
    Beyond that, regarding legislation, Dr. Watson, 
Congresswoman Watson, how many titles do you have? We will see 
what we can do legislatively to put some heat on our health 
agencies as well. But we need to have all of the knowledge we 
can from you guys.
    Ms. Gordon, thank you very much for working so hard on 
MUMS. I am sorry that you and your daughter had such a tough 
time.
    I appreciate you, doctors, and all of the hard work that 
you are doing.
    And thank you to all of the people in the audience who 
came. I have met some of you before.
    This fight regarding autism is one that has been going on 
for a long time. We have been able to get mercury out of all of 
the children's vaccines but three. They are still in adult 
vaccines. But you know, Congresswoman Watson, Weldon, myself we 
are going to be around here for a while. We will just keep 
pushing until we get the whole enchilada.
    Anyhow, thank you very much. We stand adjourned.
    [Whereupon, at 4:25 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Ileana Ros-Lehtinen and 
additional information submitted for the hearing record 
follow:]
[GRAPHIC] [TIFF OMITTED] 95740.076

[GRAPHIC] [TIFF OMITTED] 95740.077

[GRAPHIC] [TIFF OMITTED] 95740.078

[GRAPHIC] [TIFF OMITTED] 95740.079

[GRAPHIC] [TIFF OMITTED] 95740.080

[GRAPHIC] [TIFF OMITTED] 95740.081

[GRAPHIC] [TIFF OMITTED] 95740.082

[GRAPHIC] [TIFF OMITTED] 95740.083

[GRAPHIC] [TIFF OMITTED] 95740.084

[GRAPHIC] [TIFF OMITTED] 95740.085

[GRAPHIC] [TIFF OMITTED] 95740.086

[GRAPHIC] [TIFF OMITTED] 95740.087

[GRAPHIC] [TIFF OMITTED] 95740.088

[GRAPHIC] [TIFF OMITTED] 95740.089

                                 <all>

</pre></body></html>
